No. 20-1700
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ULTRATEC, INC., PETITIONER
v.
CAPTIONCALL, LLC, ET AL.
_______________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT IN OPPOSITION via e-mail and firstclass mail, postage prepaid, this 1st day of October 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,146 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 1, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 1, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1700
ULTRATEC, INC.
CAPTIONCALL, LLC, ET AL.

JAMES ERIC GOLDSCHMIDT
QUARLES & BRADY LP
411 E. WISCONSIN AVE.
STE. 2400
MILWAUKEE, WI 53202
414-277-5663
JAMES.GOLDSCHMIDT@QUARIES.COM
DONALD K. SCHOTT
QUARLES & BRADY
33 EAST MAIN STREET
SUITE 900
MADISON, WI 53703
608-283-2426
DON.SCHOTT@QUARLES.COM
PRATIK ARVIND SHAH
AKIN GUMP STRAUSS HAUER & FELD, LLP
2001 K STREET, NW
WASHINGTON, DC 20006
202-887-4210
PSHAH@AKINGUMP.COM

